 Semiannual Report to Congress 





   Office of Inspector General 



      Federal Election Commission 

      999 E Street, N.W., Suite 940 

        Washington, DC 20463



April 1, 2005 – September 30, 2005 



         November 2005 

                                TABLE OF CONTENTS





EXECUTIVE SUMMARY                           ----------------------------------------------   1      
 


FEDERAL ELECTION COMMISSION                                   ----------------------------   6        


AUDITS           -------------------------------------------------------------------------   8        


AUDIT FOLLOW-UP                    -------------------------------------------------------   12           


HOTLINE COMPLAINTS                          ----------------------------------------------   14


INVESTIGATIONS                     -------------------------------------------------------   15           


ADDITIONAL OFFICE OF INSPECTOR GENERAL 

ACTIVITY -------------------------------------------------------------------------           16           


ECIE AND PCIE ACTIVITY                      ----------------------------------------------   18           


REPORTING REQUIREMENTS                               -------------------------------------   20           


TABLE I - QUESTIONED COSTS                           -------------------------------------   21           


TABLE II - FUNDS PUT TO BETTER USE ----------------------------                              22           


TABLE III - SUMMARY OF AUDIT REPORTS WITH

            CORRECTIVE ACTIONS OUTSTANDING             

            FOR MORE THAN SIX MONTHS    -------------------                                  23 


FEC/OIG STRATEGIC PLAN – FY 2005-2010 --------------------------                             24           


CONTACTING THE OFFICE OF INSPECTOR 

GENERAL -------------------------------------------------------------------------            2
                                                                                             
5




Semiannual Report to Congress – April 1, 2005 – September 30, 2005
                               EXECUTIVE SUMMARY




        This Semiannual Report to Congress, covering the period of April 1,

2005 through September 30, 2005, is submitted in accordance with the

Inspector General Act of 1978, as amended. The Executive Summary

highlights the most significant activities of the Federal Election Commission

(FEC), Office of Inspector General (OIG) during this reporting period and are

described in greater detail in subsequent sections of this report.



        The Office of Inspector General is responsible for directing and

carrying out audits, inspections, and investigations related to the Federal

Election Commission programs and operations. The OIG recommends

policies that promote economic, efficient, and effective use of agency resources

and programs that prevent fraud, waste, abuse, and mismanagement. The

OIG is also responsible for keeping Congress and the Commission fully

informed regarding problems and deficiencies detected in FEC programs and

operations, and the necessity for corrective action.



        The audits performed by the OIG are conducted in accordance with the

Government Auditing Standards issued by the Government Accountability

Office (GAO). The investigations carried out by the OIG comply with the

Quality Standards for Investigations developed by the President’s Council on



Semiannual Report to Congress – April 1, 2005 – September 30, 2005         Page 1
Integrity and Efficiency (PCIE) and the Executive Council on Integrity and

Efficiency (ECIE).



        The fieldwork on OIG-02-03, Audit of the FEC’s Public Disclosure

Process has been completed and the draft report prepared. The main

objectives and purpose for conducting this audit are to: 1) determine the

extent, if any, of disclosure differences between candidate contributions

reported by political committees and related political committee contributions

reported received by candidates; and 2) determine whether an adequate

process is in place to remedy any reporting discrepancies.



        As part of the fieldwork, a review was done to evaluate the effect of

returned checks by a candidate to a political action committee (PAC) on the

disclosure process. This review assessed the occurrence of reporting

variances between political action committees’ disbursements and candidate

committees’ receipts in the 2001/2002 and 2003/2004 election cycles. The

candidates’ financial disclosure reports were examined to identify non-

reporting of in-kind contributions from PACs. In-kind contributions are

donations of goods, services, or property offered free or at a less than usual

charge.




Semiannual Report to Congress – April 1, 2005 – September 30, 2005          Page 2
        Additional details pertaining to the Audit of the FEC’s Public

Disclosure Process – OIG-02-03 can be found on page 8, the section entitled

Audits.



        The Chief Financial Officers Act of 1990 (Public Law 101-576,

commonly referred to as the “CFO Act”), as amended, requires the FEC Office

of Inspector General, or an independent external auditor as determined by

the Inspector General, to audit the agency’s financial statements. Under a

contract monitored by the OIG, Clifton Gunderson (GC) LLP, is the

independent certified public accounting firm performing the FEC’s FY 2005

financial statement audit.



        The OIG monitored the performance of the financial statement audit

contractor. To do this, the approach and planning of the audit, along with the

qualifications and independence of the auditors was reviewed. The work of

the auditors throughout the audit was monitored along with examining audit

documents and audit reports to ensure compliance with Government

Auditing Standards and OMB Bulletin No. 01-02, Audit Requirements for

Federal Financial Statements.



        The OIG initiated an audit follow-up of the Audit of the FEC’s Fiscal

Year 2004 Financial Statements – OIG-04-01 to determine the extent of




Semiannual Report to Congress – April 1, 2005 – September 30, 2005       Page 3
corrective action taken by management to address the forty-two outstanding

audit findings and recommendations included in the FY 2004 independent

auditors report.



        Management provided the OIG with a corrective action plan, as well as

updates, which detailed the actions taken and planned by management to

implement the audit recommendations. The OIG’s audit follow-up represents

the OIG’s assessment of management’s implementation of audit

recommendations since the completion of the FY 2004 audit and as of

September 30, 2005. The OIG’s audit follow-up resulted in the closure of

twelve audit recommendations.



        The OIG continues to work with agency management to address the

remaining outstanding recommendations. The section entitled Audit

Follow-up, starting on page 12, contains in depth information regarding the

steps taken to complete the audit follow-up assessment.



        The OIG closed one hotline complaint during this reporting period.

There are currently seven hotline complaints open; three are in progress, and

four are pending. One investigation remains open pending a decision by FEC

management. For detailed information as it relates to the hotline




Semiannual Report to Congress – April 1, 2005 – September 30, 2005           Page 4
complaints, see page 14; for work associated with the investigation, see page

15.



        Other activities that the Office of Inspector General participated in can

be found in the section entitled Additional Office of Inspector General

Activity located on page 16.




Semiannual Report to Congress – April 1, 2005 – September 30, 2005          Page 5
               THE FEDERAL ELECTION COMMISSION


        In 1975, Congress created the Federal Election Commission (FEC) to

administer and enforce the Federal Election Campaign Act (FECA). The

duties of the FEC, an independent regulatory agency, are to disclose

campaign finance information; enforce the provisions of the law; and oversee

the public funding of Presidential elections.


        The Commission is made up of six members, who are appointed by the

President and confirmed by the Senate. Each member serves a six-year term,

and two seats are subject to appointment every two years. By law, no more

than three Commissioners can be members of the same political party, and at

least four votes are required for any official Commission action. The

Chairmanship of the Commission rotates among the members each year,

with no member serving as Chairman more than once during his or her term.




                     OFFICE OF INSPECTOR GENERAL




        The Inspector General Act of 1978 (P.L. 100-504), as amended in 1988,

states that the Inspector General is responsible for: 1) conducting and

supervising audits and investigations relating to the Federal Election

Commission’s programs and operations; 2) detecting and preventing fraud,



Semiannual Report to Congress – April 1, 2005 – September 30, 2005        Page 6
waste, and abuse of agency programs and operations while providing

leadership and coordination; 3) recommending policies designed to promote

economy, efficiency, and effectiveness of the establishment; and 4) keeping

the Commissioners and Congress fully and currently informed about

problems and deficiencies in FEC agency programs and operations, and the

need for corrective action.



        The mission of the OIG is to be an independent, objective voice that

aids the Commission by promoting positive change, accountability and

integrity. An inventory of suggested audits and investigations received from

a variety of sources is maintained. The most important challenges on which

to focus our work are identified and the final step is to plan and conduct

audits and investigations that address those challenges.



        The OIG follows the standards contained in the Quality Standards for

Federal Offices of Inspector General, published by the President’s Council on

Integrity and Efficiency (PCIE) and the Executive Council on Integrity and

Efficiency (ECIE), and GAO’s Yellow Book. Our investigations comply with

the Quality Standards for Investigations, which has been developed by the

PCIE and ECIE.




Semiannual Report to Congress – April 1, 2005 – September 30, 2005           Page 7
                                              AUDITS




TITLE:                             Audit of the FEC’s Public Disclosure Process

ASSIGNMENT #:                      OIG – 02-03

RELEASE DATE:                      In Progress

PURPOSE:                           The main objectives and purpose for conducting the

audit is to: 1) to determine the extent, if any, of disclosure differences

between candidate contributions reported by political committees and related

committee contributions reported received by candidates; and 2) to determine

whether an adequate process is in place to remedy any reporting

discrepancies.



        The fieldwork was completed this reporting period. Reviews of the

effect of returned checks and amended reports on the disclosure process were

completed. The lack of reporting of in-kind contributions by candidates was

also analyzed. In-kind contributions are donations of goods, services, or

property offered free or at a lesser than usual charge. In-kind contributions

are required to be reported as monetary contributions, and the amount must

also be included as an operating expenditure.



        The OIG also contacted the FEC’s Reports Analysis Division to

determine the status of the implementation of the new automated review



Semiannual Report to Congress – April 1, 2005 – September 30, 2005              Page 8
program for campaign financial disclosure reports. The automated review

program may resolve some campaign data reporting discrepancies.



        A large amount of information was retrieved from the Commission’s

Web site and reviewed by the OIG to ascertain what information and in what

format the information was available to the public. The OIG also reviewed

the 2005 legislative recommendations proposed by the agency to determine

whether any of the recommendations would effect the disclosure of campaign

contributions.



        A draft report has been completed and the OIG plans to forward the

report to management for comment. The final audit report should be

released during the next reporting period.




Semiannual Report to Congress – April 1, 2005 – September 30, 2005      Page 9
                                              AUDITS




TITLE:                             Audit of the FEC’s Fiscal Year 2005 Financial
                                   Statements

ASSIGNMENT #:                      OIG – 05-01

RELEASE DATE:                      In Progress

PURPOSE:                           The Chief Financial Officers Act of 1990 (Public

Law 101-576, commonly referred to as the “CFO Act”), as amended, requires

the FEC OIG, or an independent external auditor, as determined by the

Inspector General, to conduct an annual financial statement audit. The audit

for FY 2005 commenced during this reporting period.



        The OIG is responsible for oversight of the financial statement audit.

This includes: 1) reviewing the auditor’s approach and planning of the audit;

2) evaluating the qualifications and independence of the auditors; 3)

monitoring the work of the auditors throughout the audit; 4) examining audit

documents and reports to ensure compliance with Government Auditing

Standards, and OMB Bulletin No. 01-02, Audit Requirements for Federal

Financial Statements; and 5) other procedures the OIG deemed necessary to

oversee the contract and audit.




Semiannual Report to Congress – April 1, 2005 – September 30, 2005                Page 10
        The OIG was also responsible for oversight of the prepared by client

(PBC) list used during the audit to list documents and information needed by

the auditors to conduct the audit. The PBC list is an Excel spreadsheet and

provides a list of the information and the due dates of the records in order for

the auditors to complete the audit according to the audit schedule agreed

upon with management. During this time, the OIG added additional

functionality to the PBC list to enable management, and the auditors the

ability to easily sort information in the PBC list.



        Numerous meetings were attended by the OIG staff, including bi

monthly meetings with senior management and the auditors to provide

management with updates and concerns. OIG staff also conducted meetings

with the auditors as necessary. The OIG expects the audit to be completed,

and the report released, as required, by November 15, 2005.




Semiannual Report to Congress – April 1, 2005 – September 30, 2005         Page 11
                                   AUDIT FOLLOW-UP




TITLE:	                    Follow-up Assessment - Audit of the FEC’s
                           Fiscal Year 2004 Financial Statements

                           Original Audit Report:
                             Assignment #: OIG – 04-01
                             Release Date: December, 2004
                             Website: http://www.fec.gov/fecig/financial04.pdf


PURPOSE:                   The OIG completed an audit follow-up of outstanding

audit findings and recommendations included in audit report OIG-04-01,

Audit of the FEC’s Fiscal Year 2004 Financial Statements. The purpose of

the audit follow-up was to determine the extent of corrective action taken by

management to address the forty-two outstanding audit recommendations

included in the FY 2004 independent auditor’s report on internal control.



         Management provided the OIG with a corrective action plan for the FY

2004 audit on February 11, 2005; as well as updates in June and September

of 2005, detailing management’s progress to address the material weaknesses

and reportable conditions identified in the OIG’s FY 2004 audit report. The

OIG consulted with the CG-LLP auditors in order to complete the audit

follow-up.




Semiannual Report to Congress – April 1, 2005 – September 30, 2005	          Page 12
        In summary, management has devoted significant efforts to implement

the recommendations and progress is being made. The OIG’s audit follow-up

completed as of September 30, 2005 resulted in the closure of twelve audit

recommendations.




Semiannual Report to Congress – April 1, 2005 – September 30, 2005      Page 13
                               HOTLINE COMPLAINTS




        The Office of Inspector General established a hotline to enable

employees and others to have direct and confidential contact with the OIG.

The OIG receives complaints through various means such as U.S. mail,

telephone, electronic mail, and personal visits to the OIG. Once a hotline

complaint has been received, a preliminary inquiry is conducted. When the

inquiry has been completed, the hotline complaint can be closed with no

further action taken, referred to management for action, or closed and an

investigation is opened on the issue.



        One hotline complaint was closed this period. The complaint had been

referred to the Department of Justice (DOJ) and the OIG assisted the DOJ in

gathering information and interviewing witnesses. After this was completed,

the DOJ declined to pursue this matter further. The OIG concurred and

closed the hotline complaint.



        The OIG currently has seven open hotline complaints. Four hotline

complaints were pending and three were in progress at the close of this

reporting period.




Semiannual Report to Congress – April 1, 2005 – September 30, 2005        Page 14
                                    INVESTIGATIONS




        One investigation is currently open. The results of the investigation,

along with the investigative report, have been given to management and

closure of this investigation is pending a decision by management.




Semiannual Report to Congress – April 1, 2005 – September 30, 2005         Page 15
      ADDITIONAL OFFICE OF INSPECTOR GENERAL ACTIVITY




         All legislation, as compiled by the Commission’s Congressional Affairs

Office, was reviewed by the Inspector General, as required by the Inspector

General Act of 1978, as amended. The Inspector General reviews and

provides comments, when appropriate, on all legislation provided by the

PCIE/ECIE Legislative Committee. In addition, the Inspector General

routinely reads all Commission agenda items and attends the Finance

Committee meetings.



         •	 The OIG reviewed a draft version of the Federal Audit Executive

             Council’s (FAEC) charter and provided comments to the FAEC.

             The charter will document the purpose, authority, responsibilities,

             and membership of the FAEC. The purpose of the FAEC is to

             discuss and coordinate issues affecting the Federal audit

             community – with special emphasis on audit policy and operations

             of common interest to FAEC members. The scope and activities of

             the FAEC include, but are not limited to, coordinating joint audit

             projects; providing input on policy related to Federal government

             audits; and coordinating with the Government Accountability Office

             and the Office of Management and Budget on matters affecting

             audit policy.



Semiannual Report to Congress – April 1, 2005 – September 30, 2005	         Page 16
         •	 The OIG responded to a survey initiated by the PCIE/ECIE

             regarding a new e-learning initiative for the IG community. The

             survey requested information about the OIG’s computer

             environment, as well as the OIG’s workforce. The IG community

             launched the E-learning site (IGEL) during this reporting period.

             The FEC/OIG, along with other members of the IG community, is

             currently participating in the pilot program. The IGEL site,

             developed by SkillSoft has over 2,000 courses available and over

             8,000 books on line in the 24x7 library. The key goal of the E-

             learning pilot is to improve professional development programs in a

             cost-effective manner.



         •	 During this reporting cycle, the OIG received a total of 8,995

             inquiries. The inquiries were received through a variety of

             channels, the U.S. Postal Service, telephone, electronic mail, and

             fax machine. Out of the 8,995 queries, 8,986 of them were

             e-mails – seventy-seven of those e-mails were forwarded to other

             entities. Nine inquiries required further action from the OIG. The

             remaining 8,909 queries required no attention.




Semiannual Report to Congress – April 1, 2005 – September 30, 2005	            Page 17
                             ECIE AND PCIE ACTIVITY




        The President’s Council on Integrity and Efficiency (PCIE) and the

Executive Council on Integrity and Efficiency (ECIE) were established by

Executive Order 12805 – May 11, 1992, to coordinate and enhance

governmental efforts to promote integrity and efficiency, and to detect and

prevent fraud, waste and abuse in Federal programs. The PCIE is comprised

of IGs appointed by the President of the United States. The ECIE consists of

IGs appointed by the head of their respective agencies.



        The Commission’s Inspector General is an active member of the

Executive Council on Integrity and Efficiency and has provided input to a

number of initiatives proposed by the Council. The ECIE serves as a forum

for the exchange of views for the Inspector General Community. The Council

identifies, reviews, and discusses issues that are of interest to the entire IG

Community. The IG attended regular meetings held by the ECIE, and joint

meetings of the President’s Council on Integrity and Efficiency and the

Executive Council on Integrity and Efficiency.



        The OIG employees continually seek ways to improve skills and

knowledge. For the period April 1, 2005 through September 30, 2005, the



Semiannual Report to Congress – April 1, 2005 – September 30, 2005          Page 18
Inspector General and/or the OIG staff attended the following training,

meetings, programs, seminars, and/or conferences:



         •	 ECIE – Monthly Meetings

         •	 PCIE – Financial Statement Audit Network (FSAN) Meeting

         •	 PCIE – IT Roundtable Discussion

         •	 PCIE / ECIE – 2005 Annual Conference

         •	 PCIE / ECIE – Federal Audit Executive Committee (FAEC)
            Conference/Meeting

         •	 PCIE / ECIE – SkillSoft Program Administrators Training

         •	 PCIE / ECIE – E-Learning Training Program Overview (FEC)

         •	 PCIE / ECIE – SkillSoft – Writing to Reach an Audience

         •	 PCIE / Government Printing Office – Inspections and Evaluation
            Roundtable Discussion

         •	 Government Executive – Excellence in Government 2005 Conference

         •	 Association of Government Accountants (AGA) – 54th Annual
            Professional Development Conference

         •	 Association of Government Accountants (AGA) – Financial
            Management in Transaction

         •	 Federal Election Commission – Information Technology System
            Security Awareness Briefing

         •	 Federal Election Commission – Microsoft Excel – Intermediate




Semiannual Report to Congress – April 1, 2005 – September 30, 2005	        Page 19
IG ACT                    REPORTING REQUIREMENTS                                              PAGE



Reporting requirements required by the Inspector General Act of 1978, as amended
by the Inspector General Act Amendments of 1988 are listed below:


Section 4(a)(2)           Review of Legislation               -----------------------------       16

Section 5(a)(1)           Significant Problems, Abuses, and
                          Deficiencies -------------------------------------------------          None

Section 5(a)(2)           Recommendations with Respect to
                          Significant Problems, Abuses, and
                          Deficiencies -------------------------------------------------          None

Section 5(a)(3)           Recommendations Included in Previous
                          Reports on Which Corrective Action Has
                          Not Been Completed-(Table III)    --------------------                  23

Section 5(a)(4)           Matters Referred to Prosecuting
                          Authorities -------------------------------------------------           None

Section 5(a)(5)           Summary of Instances Where Information
                          was Refused -------------------------------------------------           None

Section 5(a)(7)           Summary of Significant Reports               --------------------       8

Section 5(a)(8)           Questioned and Unsupported Costs-(Table I) ------                       21

Section 5(a)(9)           Recommendations that Funds be put
                          to Better Use (Table II) -------------------------------                22

Section 5(a)(10)          Summary of Audit Reports issued before
                          the start of the Reporting Period for which
                          no Management Decision has been made ------------                       N/A

Section 5(a)(11)          Significant revised Management Decisions ----------                     N/A

Section 5(a)(12)          Management Decisions with which the
                          Inspector General is in Disagreement                   ------------     None




Semiannual Report to Congress – April 1, 2005 – September 30, 2005                                    Page 20
                                               TABLE I


                    INSPECTOR GENERAL ISSUED REPORTS 

                         WITH QUESTIONED COSTS




                                                                DOLLAR VALUE (in thousands)

                                                               QUESTIONED    UNSUPPORTED
                                             NUMBER              COSTS         COSTS


A. 	 For which no Management                     0                    0           [0]
    decision has been made by
    commencement of the reporting
    period


B. 	 Which were issued during                    0                    0           [0]
     the reporting period

         Sub-Totals (A&B)                        0	                   0           [0]


C. 	 For which a Management                      0                    0           [0]
     decision was made during
    the reporting period

         (i) 	 Dollar value of disallowed        0                    0           [0]
               costs

         (ii) 	Dollar value of costs             0                    0           [0]
               not disallowed


D. 	 For which no Management                     0                    0           [0]
    decision has been made by the
    end of the reporting period


E. 	 Reports for which no Management             0                    0           [0]
     decision was made within
    six months of issuance




Semiannual Report to Congress – April 1, 2005 – September 30, 2005	                     Page 21
                                              TABLE II 


           INSPECTOR GENERAL ISSUED REPORTS WITH 

       RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE





                                                               NUMBER     DOLLAR VALUE
                                                                           (in thousands)


A. 	     For which no Management                                      0         0
         decision has been made by
         the commencement of the
         reporting period

B. 	     Which were issued during                                     0         0
         the reporting period

C. 	     For which a Management                                       0         0
         decision was made during
         the reporting period

         (i) 	    dollar value of                                     0         0
                  recommendations
                  were agreed to by
                  Management

                  based on proposed                                   0         0
                  Management action

                  based on proposed                                   0         0
                  legislative action

         (ii) 	   dollar value of                                     0         0
                  recommendations
                  that were not agreed
                  to by Management

D. 	     For which no Management                                      0         0
         decision has been made by
         the end of the reporting period

E. 	     Reports for which no                                         0         0
         Management decision
         was made within six months
         of issuance




Semiannual Report to Congress – April 1, 2005 – September 30, 2005	                    Page 22
                                             TABLE III 


    SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS 

         OUTSTANDING FOR MORE THAN SIX MONTHS





                                                                     Recommendations *



                                   Report            Issue
Report Title                       Number            Date            Number   Closed Open

Audit of the FEC’s Fiscal          OIG-04-01         12/04             42       12    30
 Year 2004 Financial
 Statements




    * For additional details pertaining to the open/closed recommendations
         please refer to the Audit Follow-up section, located on page 12.




Semiannual Report to Congress – April 1, 2005 – September 30, 2005                   Page 23
                                                      FEC / OIG Strategic Plan - Fiscal Years 2005 - 2010
                                                            OIG Process: To develop and implement                            OIG Staff: To maintain a skilled and motivated
 OIG Products: To provide products and
                                                            processes, policies, and procedures to ensure                    work force in an environment that fosters
 services that promote positive change in
                                                            the most effective and appropriate use of OIG                    accountability, communications, teamwork, and
 FEC policies, programs, and operations.
                                                            resources in support of our people and products.                 personal and professional growth.


 Objective A: Deliver timely, high-quality                                                                                   Objective A: Attract and retain well-qualified,
 products and services that promote                                                                                          diverse and motivated employees.
 positive change.	                                            Objective A: Maintain a dynamic strategic
                                                              planning process.                                              Strategy:
                                                                                                                             - develop and implement a comprehensive recruiting program

 Strategy:                                                                                                                   that attracts a broad population with the knowledge, skills,

 - establish common OIG standards for communicating           Strategy:

                                                                                                                             abilities, and expertise necessary to make meaningful

 results;                                                     - periodically review and update the strategic plan to

                                                                                                                             contributions to the OIG;

 - conduct quality assurance programs;                        address changing OIG and FEC priorities; and,

                                                                                                                             - assess employee satisfaction and develop strategies to address

 - solicit appropriate internal and external review and       - identify factors that influence organizational change and

                                                                                                                             employee concerns;

 comment;                                                     develop short and long term plans to address them.

                                                                                                                             - identify reasons for staff departures and develop plans to foster

 - comply with applicable statutory guidelines and
                                                                          greater staff retention; and,

 standards;
                                                                                                                 - adhere to EEO principles and strive to maintain a diverse work
 - set realistic and appropriate milestones.
                                                                                force.


 Objective B: Address priority issues and
 concerns of the Commission,                                  Objective B: Plan and conduct cost-
 Management, and Congress.                                    effective work that address critical issues                    Objective B: Provide training and developmental
                                                              and results in positive change.                                opportunities to employees.
 Strategy:     Perform work that supports;

 - Federal Election Commission and Congressional              Strategy:

 priorities;
                                                                                                                Strategy:
                                                              - solicit FEC and Congressional input in planning OIG          - assess training needs in relation not only to employee but also

 - Strategic Management Initiative efforts;	
                                                              activities;                                                    office needs as well;

                                                              - develop internal planning mechanisms to support FEC          - ensure that Government Auditing Standards in relation to

 Focus OIG attention in the following areas of emphasis:	
                                                              goals and priorities;                                          training are adhered to; and,

 - managing change;	
                                                              - ensure that priorities of IG are effectively communicated;   - maintain a reporting system to ensure that educational

 - resource allocation in relation to policy objectives;	
                                                              and,                                                           requirements are met.

 - delivery of client service;
                                                              - identify specific targets for OIG review that are the most
 - causes of fraud and inefficiency; and,	
                                                              cost-effective
 - automation and communication.




                                                              Objective C: Identify customer needs and
                                                              provide products and services to meet
 Objective C: Follow-up and evaluate                          them.                                                          Objective C: Assess, recognize, and reward,
 results of OIG products and services to                                                                                     when possible, performance that contributes to
 assess their effectiveness in promoting                      Strategy:                                                      achieving the OIG mission.
 positive change.	                                            - establish new customer feed back mechanisms;
                                                              - consider and evaluate customers feedback when
                                                                                                                             Strategy:
                                                              planning and developing products and services;
 Strategy:                                                    - respond to Congressional inquires and request for
                                                                                                                             - develop and articulate expectations for each employee's

 - Identify, as appropriate, lessons learned to improve	                                                                     performance, including contributions in meeting the mission &

                                                              briefing and testimony;
 timeliness and quality; and,	                                                                                               goals of the OIG; and,

                                                              - promote open exchange of ideas and information through
 - conduct follow-up reviews to determine if intended	                                                                       - ensure that rewards, when possible, are given in recognition of

                                                              outreach and through use of e-mail; and,
 results have been achieved.	                                                                                                exceptional employee performance.

                                                              - receive, evaluate, and respond, as appropriate, to
                                                              information received through the OIG hotline and other
                                                              sources.


 Objective D: Satisfy customers,	                             Objective D: Implement efficient, effective,
 consistent with the independent nature of	                                                                                  Objective D: Create and maintain a working
                                                              and consistent resolution and follow-up                        environment that promotes teamwork and
 the OIG.	                                                    procedures.                                                    effective communication.
 Strategy:	                                                   Strategy:
 - establish professional communication and interaction                                                                      Strategy:
                                                              - ensure that IG follow-up procedures are followed and that
 with customers to promote the open exchange of ideas;                                                                       - ensure that communication between employees is open;
                                                              management is aware of their role in the process;
 - incorporate customer feedback, as appropriate; and,                                                                       - provide employees with the tools and incentives they need to
                                                              - establish common OIG standards for terminology, date
 - be open to customer-generated solutions and                                                                               adequately perform their duties.
                                                              maintenance and communications.
 options.


                                                              Objective E: Establish a positive and
                                                              productive working environment.

                                                              Strategy:
                                                              - reengineer or streamline OIG procedures to achieve the
                                                              most effective use of resources; and,
                                                              - ensure that necessary technologies, evolving and
                                                              otherwise, are made available to staff as needed.



 Performance Measures: Determine the
 timeliness and quality of products and                       Performance Measures: An annual audit                          Performance Measures: All employees meet
 services; their effectiveness in promoting                   plan is issued; strategic plan is periodically                 the training requirements; all employees have
 positive change; and, reach agreement                        reviewed; and, necessary technology is                         performance standards; and all employees meet
 with management on at least 90% of                           provided to staff to enable them to most                       the basic requirements for the position in which
 recommendations within six months of                         efficiently perform their duties.                              they were hired to perform.
 the report issue date.


___________________________________________________________________________________________
Semiannual Report to Congress - April 1, 2005 – September 30, 2005                                          	                                                                   Page 24
   CONTACTING THE OFFICE OF INSPECTOR GENERAL 



The success of the OIG mission to prevent fraud, waste, and abuse depends
on the cooperation of FEC employees (and the public). There are several
ways to report questionable activity.




         Call us at 202-694-1015 or toll-free 1-800-424-9530. A confidential or
         anonymous message can be left 24 hours a day/7 days a week.




         Write or visit us - we are located at: 	 Federal Election Commission
                                                               Office of Inspector General
                                                               999 E Street, N.W., Suite 940
                                                               Washington, DC 20463

                                              Mail is opened by OIG staff members only.




                            You can also contact us by e-mail at: oig@fec.gov.

                            Our Website address: http://www.fec.gov/fecig.shtml.


Individuals may be subject to disciplinary or criminal action for knowingly
making a false complaint or providing false information.



Semiannual Report to Congress – April 1, 2005 – September 30, 2005	                       Page 25
